                             Performance Audit Report




                    SBA's Lender Loan Reporting Process 

                     has Systemic Reporting Issues and 

                         Data Control Weaknesses 





February 23, 2012                                           Report Number 12-08
                                  u.s. Small Business Administration
                                      Office Of Inspector General
                                       Washington, D.C. 20416


                                                                                       REPORT TRANSMITIAL
                                                                                         REPORT No. 12-08
DATE:           February 23, 2012

To: 	           Jeanne Hulit
                Associate Administrator for Capital Access

                Paul T. Christy 

                Chief Operating Officer 


SUBJECT: 	      SBA's Lender Loan Reporting Process has Systemic Reporting Issues and Data Control
                Weaknesses

This report presents the results of our Audit of Control and Security of SBA's Fiscal Transfer Agent and
Reporting Process. Our audit objective was to determine the adequacy of SBA's controls and oversight
over the development, security, and operation of certain information technology systems and processes
performed by Colson Services Corporation.

We request you provide your management decision for each recommendation on the attached SBA
Form 1824, Recommendation Action Sheet, by March 26, 2012 (30 days after final report date). Your
decision should identify the specific actions taken or planned for each recommendation and the target
dates for completion.

We appreciate the courtesies and cooperation of the Office of the Capital Access and Office of Chief
Information Officer during this audit. If you have any questions concerning this report, please call me at
(202) 205-7390 or Jeffrey Brindle, Director, Information Technology and Financial Management Group at
(202) 205-7490.




/S/ original signed.
John K. Needham
Assistant Inspector General for Auditing
What DIG Audited                                            What DIG Found
Since 1989, Colson Services Corporation has performed       SBA's Lender Loan Reporting process had systemic
certain functions for SBA in the 7(a) loan program and      reporting issues and data control weaknesses that
more recently in the 504 loan program. These functions      resulted in an estimated $956 million overstatement of
include processing certain automated transactions and       unpaid loan balances with an estimated $5.2 million effect
developing new information technology systems. Our          on program subsidy. Lenders frequently did not report
audit objective was to determine the adequacy of SBA's      the status and balance of their loans to Colson. Less than
controls and oversight over the development, security,      one percent of SBA lenders were responsible for over half
and operation of certain information technology systems     of identified errors and omissions. Further, Colson and
and processes performed by Colson Services Corporation      SBA systems perform different error checking routines,
(Colson).                                                   making error correction untimely and labor intensive. The
                                                            loan error volume grew by 63.5 percent from April 2006
We reviewed Colson's performance and SBA's oversight        to March 2011, reaching 44,327 errors.
of:
     • 	 the processing of lenders' loan reports on the     The SBA provided limited oversight of the 504 FMLP
          status and balance of all SBA 7(a) loans, using   system development and did not ensure it met SBA's
          SBA Form 1502, Guaranty Loan Status and           quality standards.
          Remittance Report, including error corrections;
     • 	 the design, development, and SBA oversight of      We also found that SBA systems were being operated by
          the 504 First Mortgage Loan Pooling (FMLP)        Colson without ensuring their compliance with Federal
          system;                                           security requirements.
     • 	 the security and independent audit requirements
          of Colson's systems; and                          Finally, secondary market late penalty fee collection
     • 	 guaranty fee collection and reconciliations.       needs improvement. The SBA was due $2.5 million in late
                                                            penalty fees, most of which are at least 180 days
                                                            outstanding.

               Five Year Loan Error Growth

 45 000
                                                            DIG Recommendations
                                                            We made 11 recommendations, the most significant
 40000
                                                            being to: 1) correct loan balances contributing to the $5.2
                                                            million subsidy overstatement; 2) collect $2.5 million in
 35 000
                                                            outstanding late penalty fees; 3) ensure that system
                                                            development projects adhere to SBA quality standards for
 30000
                                                            systems development projects; and 4) ensure that
                                                            systems are authorized to operate prior to being put into
 25000
                                                            production. Management agreed with our
                                                            recommendations except for the recommendation to
 20000
                                                            collect the $2.5 million in outstanding late penalty fees.

 15000
                                                            Actions Taken
 10000                                                      The SBA initiated a special project to address weaknesses
                Apr 2006                M ar 2011           in the 1502 reporting process prior to issuance of a draft
                                                            of this report.

Figure 1. Loan Error Growth from April 2006 to March 2011
Table of Contents
Introduction ................................................................................................................................1 


   Objectives ........................................................................................................................................... 1 


   Background ......................................................................................................................................... 1 


Results ........................................................................................................................................3 


   Finding: SBA Management has not Adequately Addressed Systemic Data Control Weaknesses within 

   the 1502 Reporting Process ................................................................................................................. 3 


      Lenders omit loans from the Form 1502 Report ............................................................................... 3 


      Lenders report loans incorrectly on the Form 1502 .......................................................................... 4 


      SBA and Colson do not use the same edit check criteria ................................................................... 4 


      Conclusion ....................................................................................................................................... 5 


      Management Actions Taken and In Process ..................................................................................... 5 


      Recommendation(s) ........................................................................................................................ 5 


   Finding: The SBA did not Provide Adequate Oversight of the First Mortgage Loan Pooling System 

   Development.......................................................................................................................................7 


      Conclusion .......................................................................................................................................7 


      Recommendation(s) ........................................................................................................................ 7 


   Finding: The SBA Did Not Ensure that Colson's Operation of SBA Systems Met Federal Security 

   Requirements ...................................................................................................................................... 9 


      Conclusion ....................................................................................................................................... 9 


      Recommendation(s) ........................................................................................................................ 9 


   Finding: The SBA has not Adequately Enforced Collection of Secondary Market Late Penalty Fees ..... 11 


      Conclusion ..................................................................................................................................... 12 


      Recommendation(s) ...................................................................................................................... 12 


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE .................................... 13 


Appendix I: Scope and Methodology ........................................................................................14 

Appendix III: Lenders Reporting at Least 100 Loans in Error between October 2010 - March 

2011 ..........................................................................................................................................16 


Appendix IV: Summary Table of 1502 Errors .............................................................................17 


Appendix V: Sample of SBA Loans in Error .................................................................................18 


Appendix VI: SBA 1502 Edits not Effectively Utilized by Colson ..................................................20 


Appendix VII: Use of Computer-Processed Data and Prior Coverage .........................................21 


Appendix VIII: Agency Comments ..............................................................................................22 

         Introduction
         This audit examines the Small Business Administration's (SBA's) oversight of information
         technology systems and fee recovery processes employed by one of its contractors, Colson
         Services Corporation (Colson). Colson provides services to assist the SBA's administration of its
         business loan programs. The audit identified data control weaknesses, concerns with SBA's
         oversight of system development for a new program, areas of improvement in certain fee
         collection processes, and other internal control weaknesses.

         Objectives
         Our audit objective was to determine the adequacy of SBA's controls and oversight over the
         development, security, and operation of certain information technology systems and processes
         performed by Colson.

         Background
         Colson has been SBA's Fiscal Transfer Agent (FTA)l for the SBA's 7(a) guaranty loan program
         through successive contracts since 1989. Colson also acts as the Central Servicing Agent (CSA)
         for the SBA's 504 Development Company Program. Colson is compensated by the collection of
         fees (e.g., issuance, service, transfer, origination, etc) that it earns on various program-related
         transactions. The FTA earns additional revenue from its role as an intermediary between
         lenders that sell the guaranteed portions of SBA-backed loans (either as individual guarantees or
         in loan pools) to investors on SBA's secondary market. Colson earns float interest from this role.
         Float interest is earned by receiving interest between the date payments are received from
         lenders and the date payments are made either to the investors (known as ilregistered holders")
                                                 2
         or to the SBA's Master Reserve Fund •

         To ensure the integrity of the guaranteed loan portfolio, the SBA mandates that lenders with
         outstanding 7(a) loans report the status and balance of all SBA 7(a) loans in their portfolio using
                                                                         3
         SBA Form 1502: Guaranty Loan Status and Remittance Form . The SBA requires the submission
         of this form, even when there are no payment activities from the borrowers for the subject
         month. Since 1996, Colson has collected the Form 1502 data from lenders on the SBA's behalf.
         To facilitate the processing of this data, at the beginning of each month, Colson receives an SBA
         file to establish the population of loans expected to be reported during the month. The
         information Colson receives from lenders is then compared to SBA data using a series of edit
         checks (i.e. error checks) to ensure accuracy and completeness.



1 The FTA's principal duties are to facilitate the settlement of the first sale of a loan; record current and all prior
  registered holders (investors) of a loan; track loan payment histories; collect payments from lenders on sold
  loans; remit payments to investors; forward all servicing requests from a lender to the investor and forward the
  response back to the lender; notify SBA of delinquent loans; and handle SBA and lender repurchases from the
  investor.
2 The Master Reserve Fund was created to facilitate operation of loan pooling in SBA's 7(a) secondary market

  program by holding both the principal paid from borrowers and due to investors, as well as accumulated interest
  earnings.
3 This form also serves as the medium for lender submission of 7(a) loan program guarantee fees and payments for

  loans sold on the secondary market.
                                                            1
        Colson notifies lenders of discrepancies identified by the edit checks so revisions can be made.
        Near the 20th of each month, Colson transmits loan information to the SBA to update the Loan
        Accounting System (LAS). During the same month, the FTA transmits additional information to
        the SBA as lenders correct identified reporting errors or submit 1502 updates. Prior to using any
        of the loan data from Colson, the SBA runs a series of edit checks to ensure that the information
        is valid. The loan data is then updated into the SBA's Electronic Loan Information Processing
        System (ELlPS). The SBA's ELiPS is the system of record for loan accounting and subsidy
        calculations.

        Multiple OIG audits and other reviews conducted between 2005 and 2011 identified the need
        for the Agency to:

        •        implement consistent edit check criteria with Colson;
        •        identify and address lenders that had consistent 1502 reporting errors;
        •        develop and enforce penalties on lenders who do not report on their loans; and
        •        provide adequate training to lenders.

        In 2007, the SBA re-solicited the FTA contract and, in response to previous OIG
        recommendations, included contract provisions to improve the quality of 1502 data and
        reporting. Upon contract award in 2008, responsibility for 1502 data error correction was
        transferred from SBA field offices and servicing centers to the FTA.

                                                                                                       4
        The SBA's implementation of provisions of the American Recovery and Reinvestment Act
        required modifications to Colson systems and operations as SBA's FTA for the 7(a) Loan Program
        and CSA for the 504 Development Company Program. Specifically, section 503 of the American
        Recovery and Reinvestment Act authorized SBA to place a Federal guaranty on a pool of first
        mortgages associated with loans made under its 504 Development Company Program. In June
        2010, the SBA modified its CSA contract with Colson for $2 million to include development of an
        SBA system to service 504 first mortgage loan pools. This application is referred to as the 504
        First Mortgage Loan Pooling System.


        Review of Internal Controls

                                                   s
        The SBA's Standard Operating Procedures provides guidance on the implementation and
        maintenance of effective systems of internal control as required by Federal Managers Financial
        Integrity Act of 1982. Accordingly, the Office of Management and Budget (OMB) Circular A­
            6
        123 , provides further guidance for effective systems of internal control to improve the
        accountability and effectiveness of Federal programs and operations by establishing, assessing,
        correcting, and reporting on internal controls. Circular A-123 also provides that processes for
        conducting management's assessment of the effectiveness of internal controls over financial
        reporting should be based on widely recognized internal control standards.




4 On February 17, 2009, in response to the economic crisis, the American Recovery and Reinvestment Act was
  enacted, establishing new SBA programs as well as changes to existing SBA programs.
5 SBA SOP 00 02: Internal Control Systems

6 OMB Circular A-123, "Management's Responsibility for Internal ControL"

                                                       2
           We identified internal control weaknesses as they relate to the audit objective. Specifically, the
           Office of Capital Access (OCA) did not adequately ensure that 7(a) loan transactions exchanged
           between Colson and the SBA received consistent system edits and related error correction
           procedures. In addition, OCA management did not adequately address previous OIG audit and
           external consultant recommendations intended to improve the quality of 1502 data and
           reporting. Further, the SBA was not compliant with its system development guidance and did
           not adhere to Federal security requirements relating to system authorizations.

           We will provide a copy of the final report to the senior officials responsible for internal controls
           in the Office of the Chief Financial Officer and Office of Capital Access.

           Nature of Limited or Omitted Information
           No information has been omitted due to confidentiality or sensitivity, nor were there limitations
           to information on this audit.

          Results

               Finding: SBA Management has not Adequately Addressed Systemic Data Control
                              Weaknesses within the 1502 Reporting Process

           Between October 2010 and March 2011, a monthly average of 42,000 loans, or approximately
           13% of the 320,000 active 7(a) loans, did not have their outstanding balance and status updated
           in SBA's ELiPS. Approximately 20,000 of these loans were not updated for this entire six-month
           period.

           Over the past five years, the number of loans in error per month increased from approximately
                                    7
           27,000 to 44,327 loans • This occurred because some lenders did not report all of their loans,
           some reports contained unresolved errors, and edit checks used by the SBA and Colson were
           not consistent. Further, Colson was not effectively complying with its contractual requirement
           to correct errors and the SBA was not enforcing the requirement. As a result, 7(a) loan unpaid
           principal balances and subsidy re-estimates have been overstated and fees due to the SBA may
           not be collected. Specifically, a consultant performed a study on behalf of the Office of the
           Chief Financial Officer, which determined that the unpaid principal balance of the SBA's 7(a)
           portfolio was overstated by $956 million. Because of overstating the amount of unpaid loans in
           its portfolio by nearly $1 billion, the SBA's estimate of the money needed to subsidize projected
                                                                   8              9
           losses in the program was overstated by $5.2 million as of April 2011 .

           Lenders omit loans from the Form 1502 Report
           Lenders did not report about 17,000 loans each month (four to five percent of the
           approximately 320,000 loans in the active 7(a) loan portfolio) to Colson via the SBA Form 1502.


7   Monthly loans in error include unreported loans.
8   The estimates disclosed in the consultant's study as being based on term loans included both term loans and
    loans with revolving lines of credit.
9   Annually, under the Credit Reform Act, SBA must assess the adequacy of its loan subsidy balances. Consequently
    the $5.2 million subsidy cost overstatement may result in excess funds being transferred from the 7(a) subsidy
    loan program account as well as overstate SBA's lending costs.
                                                          3
        Loans that are not reported by lenders may overstate the loan balance and adversely affect SBA
        fee collections. For loans not sold on the secondary market, the ongoing guaranty fee is
        remitted with the Form 1502 every month an interest payment is received. Therefore, if a
        lender does not report the status of an unsold loan and remit the fee on the Form 1502, Colson
        cannot determine whether or not an interest payment was made to the lender and thus,
        whether the ongoing guarantee fee is due to the SBA.

        Between October 2010 and March 2011, 20 lenders consistently did not report some or all of
                                     10                                  ll
        their loans on the Form 1502 . In March 2011, these 20 lenders , which represent less than 1­
        percent of lenders reporting to Colson, were responsible for 53-percent of the 15,533
        unreported loans.

        Lenders report loans incorrectly on the Form 1502
        Approximately four to five percent of the remaining active 7(a) loans that are reported monthly
        by lenders to Colson contained at least one error. These errors included reporting loans that
        were paid in full or purchased and reporting outstanding loan balances that exceeded the loan
        approval amount. On average, Colson, in coordination with SBA lenders, corrected only 10­
        percent of the loans in error prior to submitting the 1502 information to the SBA. Between
                                                   12
        October 2010 and March 2011, 17 lenders had consistent 1502 reporting errors. In March
        2011, these 17 lenders, which represent less than 1-percent of lenders reporting to Colson, were
                                                                                          13
        responsible for 48-percent of the loans with reporting errors identified by Colson • If an error is
        not corrected, the current loans status and outstanding balance is not updated in ELlPS, thereby
        resulting in inaccurate data.

        SBA and Colson do not use the same edit check criteria
        Inconsistent business rules used by the SBA and Colson systems to perform edit (i.e., error)
        checks on 1502 data resulted in an unresolved backlog of erroneous data. Between October
        2010 and March 2011, twelve error conditions identified by the SBA's system accounted for 96­
        percent of the total errors affecting 7(a) loans. However, because Colson used different
        business rules to check for errors, the FTA was unable to identify and address many of the errors
        noted by the SBA. 14 Further the SBA did not provide Colson with the information or
        requirements necessary to correct the errors. We performed limited sampling of errors in 1502
             1S
        data and found that Colson either did not or was unable to take corrective action for seven
        SBA edit checks, which accounted for approximately 35% of monthly SBA identified 1502
                16
        errors.




lOThese 20 lenders did not report at least 100 loans on the Form 1502 for each month. 

11 See Appendix II for the list of lenders that did not consistently report their loans on the Form 1502. 

12 Eleven of these lenders also did not consistently report some or all of their loans to Colson. 


13 See Appendix III for the list of lenders that had consistent Form 1502 reporting errors. 


14 For a detailed breakdown of errors affecting SBA loans see Appendix IV: Summary Table of 1502 Errors. 


15 For details on our sampling methodology see Appendix I: Scope and Methodology. 




16For detailed information on our sample results see Appendix V: Sample of SBA Loans in Error and Appendix VI:
 SBA 1502 Edits Not Effectively Utilized by Colson.
                                                         4
The OMB Circular A-123, requires controls to ensure that transactions are properly authorized
and processed accurately and that data is valid and complete. It also requires that controls,
such as edit checks, be established within Agency systems to verify inputs and outputs. Further,
this guidance requires agencies to continuously monitor the effectiveness of internal control.
Circular A-123 also provides that personnel should be responsible for periodic reviews,
reconciliations or comparisons of data and periodic assessments should be integrated as part of
management's continuous monitoring of internal control.

To correct deficiencies in the 1502 reporting process that were identified by the OIG in 2005 and
subsequent internal control reviews, the SBA included provisions within the FTA contract to
improve the quality of 1502 data and reporting. These requirements included:

•	      the implementation of a daily electronic loan information exchange with SBA, and
•	      the requirement for Colson to resolve 99-percent of the correctable errors identified by
        SBA edit criteria, or 97-percent of the affected loan accounts within one month.

The SBA did not enforce these provisions, however, since it did not provide Colson with system
business rules necessary to support them. Additionally, SBA management directed Colson's
efforts towards other program priorities. These priorities included systems development and
modifications necessary to enact SBA programs established in the American Recovery and
Reinvestment Act. Finally, management stated that staffing shortages within the Office of
Financial Assistance contributed to these ongoing 1502 deficiencies.

Conclusion
Agency management had not adequately addressed systemic control weaknesses that prevent
the updating of loans in ELiPS. As a result, 1502 error rates had increased from previous years.
This put the quality and reliability of SBA's 7(a) portfolio data at risk, overstated subsidy
estimates, and exposed the SBA to potential financial losses from uncollected ongoing
guarantee fees. Specifically, a consultant performed a study on behalf of the Office of the Chief
Financial Officer that determined that the unpaid principal balance of SBA's 7(a) portfolio was
overstated by $956 million. This created an estimated $5.2 million subsidy re-estimate
overstatement as of April 2011, which may result in excess funds being transferred from the 7(a)
subsidy loan program account to the 7(a) financing account and overstate SBA's lending costs.

Management Actions Taken and In Process
In response to our findings, the SBA has initiated a special project to address identified
weaknesses in the 1502 reporting process.

Recommendation(s)
In order to improve the conditions affecting SBA's 1502 reporting process, we recommend that
the Associate Administrator, Office of Capital Access:

1. 	    Research and correct loans that have not been reported within the ELiPS for a significant
        length of time (i.e. 6 months or more) which contribute to subsidy overstatements
        currently estimated at $5.2 million.


                                             5
2. 	    Utilize the lender exception detail reports to identify and address lenders that
        consistently do not report loans and issue corrective action plans.
3. 	    Utilize the lender exception detail reports to identify lenders with consistent 1502 errors
        and develop training programs that will significantly reduce their error rates.
4. 	    Identify SBA business rules that affect most loans and provide them in a useable format
        that Colson can integrate into relevant systems.
5. 	    Develop a plan to oversee and enforce FTA contractual requirements for the daily
        electronic loan information exchange and error correction.

Agency Comments

Recommendation 1
The SBA fully agreed with our recommendation. The OCA has initiated a project team to
develop and implement a lender outreach program focused on changing lender behavior. The
goal of this program is to develop greater lender awareness and connect greater lender
compliance with program privileges by establishing an enforcement role within the SBA's Office
of Credit Risk Management (OCRM). The SBA's proposed actions are responsive to
recommendation 1.

Recommendation 2
The SBA fully agreed with our recommendation. The lender exception detail reports have been
circulated to OCRM each month since August 2010 to focus attention on those lenders
repeatedly identified with unreported or incorrect and unresolved reporting errors. The SBA's
proposed actions are responsive to recommendation 2.

Recommendation 3
The SBA fully agreed with our recommendation. The SBA has a plan in place to build greater
awareness within the lender community on proper completion of the Form 1502. The SBA is
utilizing exception reports to identify lenders and researching Agency resources that could best
address corrective efforts with these lenders. The SBA's proposed actions are responsive to
recommendation 3.

Recommendation 4
The SBA fully agreed with our recommendation. The SBA 1502 process improvement project
includes consolidating SBA validation codes at Colson. Development and implementation is
underway and the Agency expects results by the first quarter of calendar year 2012. The SBA's
proposed actions are responsive to recommendation 4.

Recommendation 5
The SBA fully agreed with our recommendation. The SBA has incorporated oversight functions
into their improvement project and technical team meetings between the FTA and SBA systems
information staff are underway. The SBA's proposed actions are responsive to recommendation
5.




                                            6
               Finding: The SBA did not Provide Adequate Oversight of the First Mortgage Loan
                                         Pooling System Development

        The SBA's oversight of the Colson 504 First Mortgage Loan Pooling (FMLP) system development
        project was not adequate to ensure that the project met the standards in SBA's System
        Development Method (SDM)17. Specifically, the SBA did not provide adequate project
        management and oversight, which would include the review, approval, and retention of project
        documentation and deliverables. SBA officials overseeing the project cited a lack of awareness
        of the SDM requirements as the reason for these omissions.

                              18
        The SBA procedures require the SBA's SDM or its equivalent to be used on all information
        technology (IT) system development projects. The SBA's SDM is a phased approach that
        requires the sponsoring official to assign a project manager who is accountable for ensuring that
        phase deliverables are completed, reviewed, and approved before moving forward to a
        successive phase. This helps ensure that key issues are identified and addressed as early as
        possible, and limits major modifications to the original project.

        The SBA also did not participate in system acceptance testing as required by the SDM. Per the
        SDM, system acceptance testing emphasizes the proper functioning of the system from the
        user's point of view and demonstrates whether the program meets the user's written set of
                                19
        measurable objectives . The SDM provides classes of system acceptance testing that should be
        executed prior to system implementation including: requirements validation tests, functional
        tests, operational tests, interface tests and security tests.

        Conclusion
        Because SBA management did not provide required project oversight or participate in system
        acceptance testing, the SBA does not have adequate assurance that the FM LP system fulfills the
        program's needs. Additionally, SBA management does not have adequate assurance that Colson
        performed all system development activities specified in the contract. Finally, there is an
        increased risk that SBA would be unable to migrate, operate, and maintain the system in a new
        environment as system documentation has not been obtained by the SBA.

        Recommendation(s)
        We recommend that the Associate Administrator, Office of Capital Access:

        6. 	      Retrieve and archive all FMLP system development documentation.
        7. 	      Conduct a post implementation review of the FMLP project deliverables to ensure
                  Colson adhered to its SDLC and that all project documentation and deliverables meet
                  acceptable quality standards.

17 The SBA SDM provides a structured and integrated approach to acquiring IT solutions including planning,
  developing and operating those solutions.
18 SOP 90-47 (2): Automated Information Systems Security Program

19 The primary focus of the tests should be on translation errors, which are errors made in the process of

  transforming objectives and requirements of the system into design specifications and, finally, into an
  operational system.
                                                          7
We recommend that the Associate Administrator, Office of Capital Access in coordination with
the Chief Information Officer:

8. 	   Ensure that all future internal and external OCA system developments adhere to SBA
       SDM standards for project management and development.

Agency Comments

Recommendation 6
The SBA fully agreed with our recommendation. The SBA will work retrieving and archiving
FMLP system documentation. The SBA's proposed actions are responsive to recommendation 6.

Recommendation 7
The SBA fully agreed with our recommendation. The SBA will conduct a post implementation
review of the FMLP system. The SBA's proposed actions are responsive to recommendation 7.

Recommendation 8
The SBA fully agreed with our recommendation. However, the SBA did not propose actions that
were fully responsive to the recommendation. Specifically, the SBA did not provide details on
the measures it will take to ensure that all future internal and external OCA system
developments adhere to SBA SDM standards for project management and development.




                                          8
             Finding: The SBA Did Not Ensure that Colson IS Operation of SBA Systems Met Federal
                                           Security Requirements

           Colson was operating SBA-owned systems without SBA ensuring their compliance with Federal
           security requirements. Specifically, since 2007, the SBA had not assessed or authorized Colson's
           FTA system operations in accordance with regulatory requirements. Additionally, the SBA did
           not complete a system control assessment and authorization prior to deployment of the FM LP
           system, which was a significant change to the existing Colson 504 loan servicing system.

                               20
           The OMB guidance requires that major system applications be authorized to operate prior to
           being put into production and system security controls to be reviewed at least every three
           years. Additional guidance from the National Institute for Standards and Technology (NIST)21
           details the authorization process and further requires systems to be re-assessed when
           significant changes are made to an existing system or unplanned applications are introduced.
           The goal of the system controls assessment and authorization process is to evaluate security
           controls of a system, determine the risk posed by operating the system, authorize a system for
           operation, and monitor controls after a system is placed into production. This process is an
           important element of the Agency's IT security and risk management.

           Due to an oversight by SBA management, the FTA system was not reassessed or reauthorized
           for operation when the previous authorization expired in 2007. Additionally, due to the need to
           introduce new statutorily mandated programs, the SBA focused on implementing the FMLP
           system and originating and servicing 504 first mortgage loan pools rather than completing the
           system authorization.

           Conclusion
           The SBA has allowed Colson to operate SBA systems without adequate knowledge of all system
           risks and vulnerabilities. As a result, management did not ensure system security was
           commensurate with the risk and magnitude of the harm resulting from the unauthorized access,
           use, disclosure, disruption, modification, or destruction of information.

           Recommendation(s)
           We recommend that the Associate Administrator, Office of Capital Access, in coordination with
           the Chief Information Officer:

           9. 	    Complete the review of security controls and authorization of Colson FTA and CSA
                   systems.
           10. 	   Ensure that currently operated systems are authorized for operation and meet the
                   requirements of applicable NIST guidance and that any new system meets this
                   requirement before becoming operational.




20   0MB Circular A-130 Appendix III "Security of Federal Automated Information Resources" 

21   NIST 800-37, Rev.l"Guide for Applying the Risk Management Framework to Federal Information Systems" 

                                                        9
Agency Comments

Recommendation 9
The SBA fully agreed with our recommendation and completed the review, authorization, and
accreditation of the FTA and CSA systems hosted by Colson on August 3,2011.

Recommendation 10
The SBA fully agreed with our recommendation. However, the SBA did not propose actions that
were fully responsive to the recommendation. Specifically, the SBA did not provide details on
how it will ensure that new systems are authorized for operation and meet the requirements of
applicable NIST guidance before becoming operational.




                                          10
                Finding: The SBA has not Adequately Enforced Collection of Secondary Market Late
                                                 Penalty Fees

           Over the last five years, Colson, as SBA's FTA, has collected approximately $798 million of
           ongoing guarantee fees from lenders. Limited testing of Colson's collection activities
           determined that controls were generally effective. However, we determined that improvement
           is needed regarding the collection of secondary market late penalty fees from lenders.
           Specifically, $2.5 million in secondary market late penalty fees were due to the SBA and were
           not collected within reasonable timeframes.

          The SBA's Standard Operating Procedures 22require lenders to complete and sign SBA Form
          1086: Secondary Participation Guarantee Agreement for each SBA 7(a) guaranteed loan they sell
          to investors on the secondary market. The form requires lenders to remit payments on
          secondary market loans to the FTA by the third calendar day of every month, or the next
          business day if the third is not a business day. When payments on secondary market loans are
          not submitted to Colson by the time they are due to the investor, Colson will pay the investor
                            23
          from a trust fund established for that purpose. For any payment not received by the FTA on
          the second business day after the due date, the lender is subject to the following late payment
          penalties:

           •	       a late payment penalty to SBA (collected by FTA), which is the greater of $100 or five­
                    percent of the unremitted amount (subject to a maximum penalty of $5,000 per
                    month);
           •	       a late payment penalty to FTA equal to the interest on the unremitted amount at the
                    rate provided in the Note, less the rate of Lender's servicing fee; and
           •	       a late payment penalty to FTA calculated at a rate of twelve-percent per annum, on the
                    unremitted amount.

          The form also states that failure by the lender to pay such penalty and collection fees within ten
          business days of receipt of a bill for such fees may constitute a significant violation of the rules
          and regulations of the secondary market. Finally, the form states that the FTA and the SBA
          reserve the right to withhold these penalty fees from settlement of any future guaranteed
          interest sale, or any payment made by the SBA or FTA to the lender.

          While Colson has billed lenders approximately $8 million in late penalty fees over the last five
          years, unpaid amounts have increased from $1.7 million in 2006 to approximately $3 million in
          2011. We determined that SBA's portion of these outstanding penalty fees was approximately
          $2.5 million, most of which exceeded 180 days. Management was not adequately monitoring
          outstanding secondary market late penalty fees due to a lack of resources within OFA needed to
          collect small outstanding amounts.




22   SOP 50 10 5(C): Lender and Development Company Loan Programs
23   The Master Reserve Fund
                                                       11
Conclusion
Because the SBA did not dedicate resources to collect these outstanding amounts,
approximately $2.5 million in funds were not collected.

Recommendation(s)
We recommend that the Associate Administrator, Office of Capital Access:

11. 	   Collect the $2.5 million in secondary market late penalty fees by either billing lenders or
        offsetting against any guarantee purchase amounts.

Agency Comments

Recommendation 11
The SBA did not agree with our recommendation to collect the $2.5 million in secondary market
late penalty fees. The SBA does not view the outstanding penalty fees as a material item in the
context of total fees collected that requires the dedication of limited staff resources and time to
collect. The OIG believes that the $2.5 million in secondary market late penalty fees is an
outstanding amount owed to the Agency that should be collected through direct billing or
offset.




                                            12
AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE
On October 12, 2011, we provided a draft of this advisory memorandum to the Associate
Administrator for Capital Access and the Chief Information Officer. On January 9, 2012, the
Office of Inspector General received SBA's final comments. The Acting Associate Administrator
for Capital Access generally agreed with all of the recommendations. A summary of
management's comments and our response follows.

Agency Comments

Management agreed that SBA's Lender Loan Reporting process had systemic reporting issues
and stated that it has made improving the process a top priority for the OCA and has already
resolved two of the eleven recommendations. Management, however, was concerned that our
references to the $5.2 million subsidy re-estimate overstatement did not clearly identify this
value as an estimate and included enough context. Management also stated that the audit
report did not adequately disclose whether the analysis conducted in 2006 included unreported
loans.


OIG Response

In response to the Agency's comments, we added additional language in the executive summary
to clarify that the $5.2 million subsidy amount was an estimated figure. We also revised the
report to provide additional information regarding the composition of loans used to derive the
estimate. Additionally, the OIG added language within the report to disclose that the analysis of
loan errors conducted in 2006, which identified approximately 27,000 loans in error, included
unreported loans.


Actions Required


Please provide your management decision for each recommendation on the attached SBA
Forms 1824, Recommendation Action Sheet, within 30 days from the date of this report. Your
decision should identify the specific action(s) taken or planned for each recommendation and
the target date(s) for completion.

We appreciate the courtesies and cooperation of the Small Business Administration during this
audit. If you have any questions concerning this report, please call me at (202) 205-7390 or Jeff
Brindle, Director, IT and Financial Management Group at (202) 205-7490.




                                            13
Appendix I: Scope and Methodology
To accomplish our objective we reviewed contractor performance and SBA's oversight of contracts with
Colson Services Corporation (Colson) for Fiscal Transfer Agent (FTA) and Central Servicing Agent (CSA)
services. For the FTA contract, we reviewed activities related to 1502 data collection, error correction
and reconciliation, guaranty fee collection and reconciliation, secondary market transactions, SBA Form
159 data collection, and summary and variance reporting requirements. For the CSA contract, we
reviewed SBA's oversight of the design and development of the FMLP system. Finally, we reviewed the
security and independent audit requirements of Colson's systems including system Certification and
Accreditations, Statement of Accounting Standards 70 (SAS 70) reports for Colson and its parent and
SBA's Plans of Action and Milestones covering Colson system vulnerabilities.

Our audit methodology consisted of interviews with program officials and Colson personnel, review and
analysis of SBA contracts with Colson, as well as relevant reports and system documentation.
Additionally, we performed analytical procedures on data extracts obtained from Colson and the SBA for
the period of October 2010 through March 2011 and conducted limited sampling of 1502 report errors.

We conducted this audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives. We believe
that the evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.


Sampling

Our analysis of SBA error conditions affecting 7(a) loans identified that 12 error codes were responsible
for approximately 96-percent of the total errors each month. In order to further understand the
conditions that result in lIerrors" identified by SBA, we selected a judgmental sample of 36 loans, 3 per
error code, that were affected by these 12 errors. This sample was sufficient to identify whether the
error was the result of an unreported loan, a condition that Colson had knowledge of but was unable to
correct, or exclusive to SBA edit criteria.

To select our judgmental sample, we performed a series of data queries to select and insert records into
new monthly tables from an extract of SBA's 1502 data. The table of records for the month of March
2011 was selected and sorted by the error and the first three loans affected by a singular error from the
top 12 error codes were selected for our sample. Sampling only loans with a single error code was
performed to facilitate the isolation and identification of the condition resulting in the error. Loans
affected by error codes 1044 and 1196 were only observed in combination with other error codes. In
response, we sampled loans with error code combinations of 11044, 1006' and 11042, 1196' as these
combinations were the most common in both instances. This sample was then submitted to Colson
requesting that the following information be provided:

    1. 	 Whether the loan was reported on the 1502 by the lender during the month.
    2. 	 Whether the loan was reported on the 1502 by the lender and identified in error by Colson.
    3. 	 Whether the identified error(s) on a given loan were corrected by Colson prior to the final 1502
         data submission to SBA.

For the results of this test, see Appendix V: Sample of SBA Loans in Error.
                                                     14
  Appendix II: Lenders Not Reporting at Least 100 Loans between October 2010 - March
  2011

  Table 1. Lenders Not Reporting at Least 100 Loans between October 2010 - March 2011



                                              Loans           Loans      Loans      Loans      Loans      Loans
                                               Not             Not        Not        Not        Not        Not
                                             Reported        Reported   Reported   Reported   Reported   Reported
LENDER NAME                                   Oct-10          Nov-10     Dec-10     Jan-11     Feb-11     Mar-11
BANCO POPULAR DE PUERTO RICO                    221            218        242        245        240        246
BANCO POPULAR NORTH AMERICA                    1,550           104        104        100       1,421       100
BRANCH BANKING & TRUST CO.                      116            111        118        127        135        146
CAPITAL ONE FSB                                 271            272        273        300        304        300
CHARTER ONE BANK N.A.                           178            158        167        542        178        187
CITIZENS BANK                                  1,372          1,395      1,391      1,383      1,415      1,409
CITIZENS BANK PENNSYLVANIA                      279            292        296        305        314        319
CITIZENS BANK OF MASSACHUSETIS                  188            192        193        190        375        387
CITIZENS BANK OF RHODE ISLAND                   114            116        113        115        116        113
DORAL FEDERAL SAVINGS BANK                      104            104        104        104        104        103
FIRST COMMONWEALTH BANK                         131            125        124        120        114        111
HSBC BANK USA                                   220            241        244        249        253        253
HUNTINGTON NATIONAL BANK                        101            105        121        100        130        127
INNOVATIVE BANK                                 229            414        369        515        495        675
JPMORGAN CHASE BANK, NA                         527            489        522        529        558        324
MANUFACTURERS & TRADERS TRUST                   254            200        219        206        216        200
SOVEREIGN BANK MID ATlANTIC                     101           1,833       100        104       1,894      1,922
TD BANK, NA                                     508            491        491        505        508        511
WASHINGTON MUTUAL BANK, FA                      115            131        125        126        329        124
WELLS FARGO BANK N.A.                           392            417        434        633        676        735
TOTAL                                          6,971          7,408      5,750      6,498      9,775      8,292



  Source: Colson Services Corporation




                                                        15
  Appendix III: Lenders Reporting at Least 100 Loans in Error between October 2010 ­
  March 2011
  Table 2. Lenders Reporting at Least 100 Loans in Error between October 2010 - March 2011

                                                 Loans         Loans       Loans       Loans       Loans       Loans
                                               Reported      Reported    Reported    Reported    Reported    Reported
                                                In Error      In Error    In Error    In Error    In Error    In Error
LENDER NAME                                      Oct-10       Nov-10      Dec-10       Jan-ll      Feb-ll     Mar-ll
BANCO POPULAR DE PUERTO
RICO                                             142           157         129         138         160         164
BANCO POPULAR NORTH AMERICA                      157           118         197         182         202         144
BANK OF AMERICA N.A.                             610          1,139        722         864         885         871
CAPITAL ONE FSB                                  843           766         823         815         836         299
CHARTER ONE BANK N.A.                            199           183         190         177         208         206
CITIZENS BANK                                    736           755         825         788         833         845
CITIZENS BANK PENNSYLVANIA                       435           433         441         440         445         444
CITIZENS BANK NA                                 175           172         165         145         169         170
CITIZENS BANK NEW HAMPSHIRE                      273           274         292         298         304         320
CITIZENS BANK OF CONNECTICUT                     104           108         110         100         115         111
CITIZENS BANK OF MASSACHUSETIS                   479           478         486         521         447         459
CITIZENS BANK OF RHODE ISLAND                    239           237         248         269         254         264
FIRST CITIZENS F/K/A TEMECULA                    168           167         173         171         136         169
JPMORGAN CHASE BANK, NA                          208           181         176         205         182         144
MANUFACTURERS & TRADERS TRUST                    258           279         242         244         214         216
PNC BANK, NATIONAL ASSOCIATION                   319           212         217         345         204         767
WELLS FARGO BANK N.A.                            351           340         307         883         298         289
TOTAL                                           5,696         5,999       5,743       6,585       5,892       5,882



  Source: Colson Services Corporation




                                                        16
Appendix IV: Summary Table of 1502 Errors

Table 3. Summary of 1502 Errors


                                             Oct-10   Nov-10    Dec-10   Jan-ll   Feb-ll   Mar-ll              %of
  SBA Error                                  39,326   41,233    39,969   43,863   43,107   44,286             Total
    Code           SBA Error Code Text        loans    loans     loans    loans    loans    loans    Total    Errors
1006           Lender not reported           17,544   19,403    17,828   22,336   22,994   19,559   119,664     32%
               Guarantee Report status
1044           code is mandatory             11.239   13,759    12,559   15,805   15,218   13,421    82,001     22%
               Outstanding Balance
               cannot decrease as
1030           Principal Payment is 0         8,875    8,923     9,096    8,707    7,759   11,855    55,215     15%
               If Guaranty Service Status
               Code is 1,2,3,4 Current
1037           Loan Status must be 1 or 2     7,821    7,490     7,585    7,031    6,845    6,978    43,750     12%
               Outstanding Balance plus
               Total Amount Undisbursed
               cannot exceed Current
1042           Loan Approval Amount           2,699    2,699     2,677    2,732    2,559    3,133    16,499      4%
1029           Loan has been Purchased        1,113    1,215     1,484    1,273    1,358    1,691     8,134      2%
               Outstanding Balance must
               be less than or equal to
               Current Loan Approval
1196           Amount                         1,406    1,371     1,342    1,415    1,320    1,306     8,160      2%
               First Disbursement Date
               cannot be null when Loan
1048           Disbursed Indicator is Y         783     951      1,033    1,203      935    1,064     5,969      2%
               Total Amount Undisbursed
               must be 0 for a loan in
1050           Liquidation                    1,092    1,135     1,020      963      894    1,004     6,108      2%
               Current loan status must
               be 1 (Approved - Fully
               Undisbursed) , 2 (Disbursed
               - Regular Servicing) or 3
1011           (Disbursed -In-Liquidation)      552     985      1,091      805    1,013    1,089     5,535      1%
               If Guaranty Service Status
               Code is 9 or 0, Total
               Amount Undisbursed must
               equal Current Loan
1033           Approval Amount                  720     784       744       879    1,070      765     4,962      1%
               If Guaranty Service Status
               Code is 1,2,3,4 Outstanding
               Balance must be greater
1035           than 0                           757     670       716       774      598      621     4,136      1%
Remaining
Errors                                        2,775    2,986     2,849    2,529    2,776    2,636    16,551      4%
Total Errors                                 57,376   62,371    60,024   66,452   65,339   65,122   376,684



Source: SBA 1502 Data Warehouse information




                                                           17
       Appendix V: Sample of SBA Loans in Error
       Table 4. Sample of SBA loans in Error


                                                                                               Loan
                                                                                           reported on    Loan reported
                                                                                             1502 by       on 1502 and       Error
Sample      SBA Loan     SBA Error                                                          lender to      identified in   Corrected
 Item        Number        Code            SBA Error Message(s) for loans in error            Colson     error by Colson   by Colson
  1       1689785006     1006        Lender not reported
  2       1720975003     1006        Lender not reported
  3       1943406000     1006        Lender not reported
  4                                  Current loan status must be 1 (Approved - Fully
                                     Undisbursed) , 2 (Disbursed - Regular Servicing) or       X
          2041145004     1011        3 (Disbursed -In-Liquidation)
  5                                  Current loan status must be 1 (Approved - Fully
                                     Undisbursed) , 2 (Disbursed - Regular Servicing) or       X                X
         4327845007      1011        3 (Disbursed -In-Liquidation)
  6                                  Current loan status must be 1 (Approved - Fully
                                     Undisbursed) , 2 (Disbursed - Regular Servicing) or       X
          9347654002     1011        3 (Disbursed -In-Liquidation)
   7      [Ex. 4, 6]     1029        Loan has been Purchased                                   X
   8       [Ex. 4]       1029        Loan has been Purchased                                   X
   9       [Ex. 4]       1029        Loan has been Purchased                                   X
  10                                 Outstanding Balance cannot decrease as Principal
                                                                                               X                X
          1803545009     1030        Payment is 0
  11                                 Outstanding Balance cannot decrease as Principal
                                                                                               X
          2256355005     1030        Payment is 0
  12                                 Outstanding Balance cannot decrease as Principal
                                                                                               X
          9147504009     1030        Payment is 0
  13                                 If Guaranty Service Status Code is 9 or 0, Total
                                     Amount Undisbursed must equal Current Loan                X
          3607465000     1033        Approval Amount
  14                                 If Guaranty Service Status Code is 9 or 0, Total
                                     Amount Undisbursed must equal Current Loan                X
         4313825000      1033        Approval Amount
  15                                 If Guaranty Service Status Code is 9 or 0, Total
                                     Amount Undisbursed must equal Current Loan                X
         4341205010      1033        Approval Amount
  16                                 If Guaranty Service Status Code is 1,2,3,4
                                                                                               X                X
          2191446002     1035        Outstanding Balance must be greater than 0
  17                                 If Guaranty Service Status Code is 1,2,3,4
                                                                                               X                X
         4197205004      1035        Outstanding Balance must be greater than 0
  18                                 If Guaranty Service Status Code is 1,2,3,4
                                                                                               X                X
          6507933003     1035        Outstanding Balance must be greater than 0
  19                                 If Guaranty Service Status Code is 1,2,3,4 Current
                                                                                               X
          1999106003     1037        Loan Status must be 1 or 2
  20                                 If Guaranty Service Status Code is 1,2,3,4 Current
                                                                                               X
          6206544007     1037        Loan Status must be 1 or 2
  21                                 If Guaranty Service Status Code is 1,2,3,4 Current
                                                                                               X
          6586044000     1037        Loan Status must be 1 or 2
  22                                 Outstanding Balance plus Total Amount
                                     Undisbursed cannot exceed Current Loan Approval           X                X
          1919076008     1042        Amount




                                                                 18
                                                                                           Loan
                                                                                       reported on    Loan reported
                                                                                         1502 by       on 1502 and       Error
Sample      SBA Loan    SBA Error                                                       lender to      identified in   Corrected
 Item        Number       Code            SBA Error Message(s) for loans in error         Colson     error by Colson   by Colson
   23                               Outstanding Balance plus Total Amount
                                    Undisbursed cannot exceed Current Loan Approval        X                X             X
         4241145008     1042        Amount
  24                                Outstanding Balance plus Total Amount
                                    Undisbursed cannot exceed Current Loan Approval        X                X
         4382135009     1042        Amount
  25                    1044,       Guarantee Report status code is mandatory;
         1771774006     1006*       Lender not reported
  26                    1044,       Guarantee Report status code is mandatory;
         1864765009     1006*       Lender not reported
  27                    1044,       Guarantee Report status code is mandatory;
         1951005002     1006*       Lender not reported
  28                                First Disbursement Date cannot be null when Loan
                                                                                           X
         1847505010     1048        Disbursed Indicator is Y
  29                                First Disbursement Date cannot be null when Loan
                                                                                           X
         3476615007     1048        Disbursed Indicator is Y
  30                                First Disbursement Date cannot be null when Loan
                                                                                           X
         4075825004     1048        Disbursed Indicator is Y
  31                                Total Amount Undisbursed must be 0 for a loan in
            [Ex. 4]                                                                         X
                        1050        Liquidation
  32                                Total Amount Undisbursed must be 0 for a loan in
           [Ex. 4, 6]                                                                       X
                        1050        Liquidation
  33                                Total Amount Undisbursed must be 0 for a loan in
           [Ex. 4, 6]                                                                       X
                        1050        Liquidation
  34                                Outstanding Balance plus Total Amount
                                    Undisbursed cannot exceed Current Loan Approval
                                                                                           X                X
                        1196,       Amount; Outstanding Balance must <= Current
         1397645008     1042*       Loan Approval Amount
  35                                Outstanding Balance plus Total Amount
                                    Undisbursed cannot exceed Current Loan Approval
                                                                                           X                X
                        1196,       Amount; Outstanding Balance must <= Current
         1431805002     1042*       Loan Approval Amount
  36                                Outstanding Balance plus Total Amount
                                    Undisbursed cannot exceed Current Loan Approval
                                                                                           X                X
                        1196,       Amount; Outstanding Balance must <= Current
         4514505005     1042*       Loan Approval Amount



       Source: SBA 1502 Data Warehouse information and supplemental information provided by Colson
       Services Corporation

       This appendix provides the results of a sample of SBA identified 1502 errors on 36 loans and whether
       Colson Services Corporation identified the loans as: 1) not reported by lenders, 2) reported in error by
       lenders, or 3) corrected by Colson Services Corporation.




                                                              19
Appendix VI: SBA 1502 Edits not Effectively Utilized by Colson

Table 5. SBA 1502 Edits not Effectively Utilized by Colson

     SBA Edit                                   Error Message                                  Percent of Total
      Check                                                                                      SBA Errors
       1011       Current loan status must be 1 (Approved - Fully Undisbursed), 2                    1%
                  (Disbursed - Regular Servicing) or 3 (Disbursed -In-Liquidation)
       1029       Loan has been purchased                                                            2%
       1030       Outstanding balance cannot decrease as principal payment is 0                      15%
       1033       If guaranty service status code is 9 or 0, total amount undisbursed must           1%
                  equal current loan approval amount
       1037       If guaranty service status code is 1,2,3 or 4, current loan status must be         12%
                  lor 2
       1048       First disbursement date cannot be null when loan disbursed indicator is            2%
                  V
       1050       Total amount undisbursed must be 0 for a loan in liquidation                       2%
       Total                                                                                        35%



        Source: SBA 1502 Data Warehouse information and supplemental information provided by
        Colson Services Corporation




                                                         20
Appendix VII: Use of Computer-Processed Data and Prior Coverage

Use of Computer-Processed Data and Prior Coverage

We were provided several documents and reports containing computer-processed data. The majority of
these were Microsoft Excel documents created by Colson to support contractual requirements for their
FTA responsibilities. These reports included summarized lender 1502 exception reports, 7(a) Monthly
Dashboard reports, and outstanding secondary market late penalty fee reports.

We were also provided SBA 1502 Data Warehouse information for the period covering October 2010
through April 2011. We conducted detailed data analyses of 1502 records to determine common errors
and error counts and compared them to summary reports generated by SBA to monitor loan records
that do not update in ELiPS. We performed limited tests of these reports and 1502 Warehouse
information and determined that the data was reasonably complete, authentic and accurate.


Prior Coverage

Multiple audits and reviews have been conducted between 2005 and 2011 related to the 1502 loan
reporting process and SBA's oversight of Colson operations. The SBA OIG reports and other review
reports used in this audit include:

SBA OIG Reports
    • 	 Review of the 1502 Reporting Process, December 9, 2005, Report Number 06-07.
    • 	 Loan Classifications and Overpayments on Secondary Market Loans, March 26, 2008, Report
        Number 08-09.
    • 	 Audit of SBA's FY 2010 Financial Statements - Management Letter, December 15, 2010, Report
        Number 11-05.

SBA OIG reports can be accessed at http://www.sba.gov/office-of-inspector-genera l.

Other Reports
   • 	 Kearney & Company: Summary of the 1502 Project, August 24, 2006
   • 	 FI Consulting: 1502 Reporting Process Analysis, August 13, 2010
   • 	 FI Consulting: 1502 Reporting Process Analysis, July 14, 2011




                                                  21
Appendix VIII: Agency Comments


    RESPONSE TO "AUDIT OF CONTROL AND SECURITY OF SBA'S FISCAL TRANSFER AGENT"

Improving the 1502 process is a top priority for the Office of Capital Access (OCA). The OCA is leading an
intra-agency team to identify core issues and improvement opportunities to remedy lender loan
reporting in the 7(a) program. These should be resolved upon execution of the project plan over the
next six months.

OCA has reviewed the Office of Inspector General (IIOIG") draft report titled IIAudit of Control and
Security of SBA's Fiscal Transfer Agent" dated October 13, 2011 (the lIaudit")24.
In discussions that we have had with the OIG, we understand that the OIG's reference to a report
prepared for the CFO by an outside third party contractor (referred to from this point as the IICFO
contractor report")25, was only to determine the financial impact of reported errors on the subsidy
estimates. We believe reference to the CFO contractor report as a means to develop a numerical point
estimate should be disclosed in the audit so that the reader knows is aware of the limited use of the
analysis and can determine on their own if other aspects of the analysis have merit. The objective of the
audit is to determine the adequacy of SBA's controls and oversight over the development, security, and
operation of certain information technology systems and processes performed by the agency's procured
contractor serving as the Fiscal Transfer Agent (FTA) for SBA's secondary market for SBA 7(a) loans and
as Central Servicing Agent (CSA) for SBA's 504 loan program.

OIG has issued eleven recommendations following its review, three of which require input from the
Office of Chief Information Officer. The comments below address the report contents in general and
recommendations for action that have been made to the Associate Administrator for Capital Access.

OCA's response to the audit is coordinated with the format of the audit report so, for example,
comments to statements made in the IIExecutive Summary" of the audit can be found under the header
IIExecutive Summary" in this document.



RESPONSE TO RECOMMENDATIONS

Executive Summary

In the Executive Summary, the OIG stated that it found that the lender loan reporting process had issues
and weaknesses that resulted in a $956 million overstatement of unpaid loan balances with a $5.2
million effect on subsidy estimates.

         Response: The summary purports to disclose the overstatement as a matter offact instead of the
         CFO contractor report estimate.

24 In this document, the term "audit" shall refer both to the draft audit report and the audit activity underlying the
  report.
25 Small Business Administration 1502 Reporting Process Analysis, 14 July 2011 by FI Consulting.

                                                           22
        The subsequent statement that the overstatement results in a $5.2 million effect on subsidy
        estimates lacks context unless it is compared with the re-estimate total provided in the same
        CFO contractor report $26.24 million. This results in a 0.54% impact on the overall subsidy
        estimate.

We would expect this disclosure to be contained in the audit.

Response to Specific Recommendations

Seven of the eleven recommendations center on improving lender reporting behavior, introducing daily
data transfers, and aligning business validation rules that exist separately at the SBA and at Colson
Services Corp, our fiscal and transfer agent. The OCA is leading an intra-agency team to identify core
issues and improvement opportunities to remedy lender loan reporting in the 7(a) program. These
should be resolved upon execution of the project plan over the next six months.

Two of the eleven have been resolved separate from the report, and three others require input from
information systems development staff.



First Finding - SBA Management has not Adequately Addressed Systemic Data Control
Weaknesses within the 1502 Report Process

The statement is made in the second paragraph that   1t •••   Colson is not complying with its contractual
requirement to correct errors ..."

        Response: The fiscal and transfer agent contract with Colson sets performance measures based
        on correctable errors that are received back from lenders issued exception notices. If lenders do
        not respond to lender exception notifications, Colson remains obligated to return all accounts
        received at the beginning of a monthly report cycle. In this report cycle framework, it is not
        possible for Colson to adjust incorrect account information arbitrarily.
       OCA has also investigated the differences in what Colson deems as a correct account, and what
       SBA considers as remaining in error. We have engaged SBA stakeholders in developing uniform
       validation rules that will be implemented in 2012 to eliminate this divergence from occurring.
        This exercise has been initiated by SBA and Colson within the last 90 days, and SBA is tracking
        this as a priority project in Capital Access.
In addition, the finding is based on increases in the number of unreported and uncorrected data errors
related to SBA loan balances in the 7(a) program.

        Response: The analysis of loan error increases considers two discrete points in time and
        establishes a ratio accordingly. The audit does not disclose whether the analysis conducted in
        2006 included unreported loans as they are now in 2011. Nor does the audit look at the change
        in the portfolio composition and the flow of accounts in and out of the portfolio between the two
        time periods. To that end, SBA presents the following



                                                    23
      Loan Error Rate Increase

      March 2011 Loans in Error                                              44,327
     April 2006 Loans in Error                                               27,111
           Reported Increase in Loan Error Rate                               63.5%



      Number of Loans in Portfolio at Sep 30 2005: 	                         265773


                      # of Loan      Loans Removed from Active       # of Loans
      FY             Approvals               Portfolio              Outstanding
    II'"
      2006                97,291 	                         70,204           292,860
    II'"
      2007                99,607 	                         71,459           321,008
    II'"
      2008                69,437 	                         71,050           319,395
    II'"
      2009                41,289 	                         61,122           299,562
    II'"
      2010                47,000                           62,384           284,178
                                                          336,219
      Number of Loans in Portfolio at Sep 30 2010:


     Total Number of Accounts in Portfolio that                             276,746 

           Involved Change in Status, 2006 - Apr 2011 

     Total Accounts That Impacted Active Portfolio 



      Loan Error Rate - Revised 	                                             7.23%

   When viewed in this context, the loan error rate is 7.23%, not 63.5%, and should be the baseline
   for process improvement. OCA respectfully disagrees with this element of the finding as
   presented.

Response to Recommendations
1. 	 Research and correct loans that have not been reported within the Electronic Loan Information
     Processing System (ELlPS) for a significant length of time (i.e. 6 months or more) which
     contribute to subsidy overstatements currently estimated at $5.2 million.

Response: The Office of Capital Access has initiated a project team to develop and implement a
lender outreach program focuses on changing lender behavior in order to comply with reporting
standards. The goal is to develop greater lender awareness of loan reporting impact on SBA
stakeholders, connect greater lender compliance with program privileges (PLP authority, secondary
market participation, waiver from SBA right of offset) by establishing an enforcement role within the
Office of Credit Risk Management (OCRM) for those lenders with repeated errors in Form 1502
report filings.

2. 	 Utilize the lender exception detail reports to identify and address lenders that consistently do
     not report loans and issue corrective action plans.
                                                    24
   Response: These reports have been circulated to OCRM each month since August 2010 to focus
   attention on those lenders repeatedly identified with unreported or incorrect and unresolved
   reporting errors. We expect risk-based reviews to include corrective action recommendations to
   improve lender loan reporting.

   3. 	 Utilize the lender exception detail reports to identify lenders with consistent 1502 errors and
        develop training programs that will significantly reduce their error rates.

   Response: As mentioned above, we have a plan in place to build greater awareness within the
   lender community on proper completion of the Form 1502. We utilize the exception report to
   identify lenders, and are looking into which Agency resource could best address corrective efforts
   with these lenders.

   4. 	 Identify SBA business rules that affect most loans and provide them in a useable format that
        Colson can integrate into relevant systems.

   Response:   Our 1502 process improvement project includes consolidating SBA validation codes at
   Colson. Development and implementation is underway and we expect to see results by the first
   quarter of calendar year 2012.


   5. 	 Develop a plan to oversee and enforce FTA contractual requirements for the daily electronic
        loan information exchange and error correction.

   Response: This effort is incorporated into our improvement project with technical team meetings
   between the FTA and SBA systems information staff underway.


Second Finding - SBA did not Provide Adequate Oversight of the First Mortgage Loan Pooling
System Development

   Response to Recommendations
   6. 	 Retrieve and archive all FMLP system development documentation.

Response: SBA will work on retrieving and archiving this documentation.



   7. 	 Conduct a post implementation review of FMLP project deliverables to ensure Colson adhered
        to its SLDC and all project artifacts meet acceptable quality standards.

Response: SBA agrees and will conduct a post implementation review.



   8. 	 Ensure that all future internal and external OCA system developments adhere to SBA SDM
        standards for project management and development.

Response: SBA agrees.

                                                   25
Third Finding - SBA Did Not Ensure That Colson's Operation of SBA Systems Met Federal
Security Requirements

The reports states that systems owned by SBA and operated by Colson were operating without SBA
ensuring the system compliance with Federal security requirements.

         Response: SBA has worked hand-in-hand with the Office of the Chief Information Officer since
         early 2011 to obtain system security accreditation and authorization. This authorization and
         accreditation was secured for these systems in August 2011. This extensive effort included the
         system elements associated with the FMLP program was being completed at the same time of
         this review. We would recommend the report reflect this as a subsequent event that has been
         addressed. OCA agrees with the finding and has since corrected the finding.
    Response to Recommendations

    9.   Complete the review of security controls and authorization of Colson FTA and CSA systems.

    Response: The review, authorization and accreditation of the FTA and CSA systems hosted by
    Colson were completed August 3, 2011.

    10. Ensure that currently operated systems are authorized for operation and meet the requirements
        of applicable NIST guidance and that any new system meets this requirement before becoming
        operational.

    Response: SBA agrees.

Fourth Finding - SBA has not Adequately Enforced Collection of Secondary Market Late
Penalty Fees

The draft report estimates that over the last five years, SBA has not collected $2.5 million in late fees
through Colson.

         Response: This estimate of uncollected fees should be viewed in the context of all fees collected
         in the 7(a) program over this same period. See below:

         Fee Collection


         Reported Collection Deficiency                                      2,500,000
         Total Fees Collected, FY2006 - March 2011                        798,000,000

         Fees Oustandingj Fees Collected                                        0.313%


         OCA considers the recommendation to devote resources to collect late fees to be immaterial in
         relation to total fee collection activity.



                                                     26
Response to Recommendations

11. Collect the $2.5 million in secondary market late penalty fees by either billing lenders or
    offsetting against any guarantee purchase amounts.

Response: The Office of Capital Access does not view this as a material item and does not agree
with the recommendation to dedicate limited staff resources and time to collect secondary market
late penalty fees.




                                                27
